AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

    SOUTHWEST BORDER PROSECUTION

    INITIATIVE FUNDING RECEIVED BY

     DOÑA ANA COUNTY, NEW MEXICO





        U.S. Department of Justice

      Office of the Inspector General

               Audit Division



       Audit Report GR-60-12-018

              August 2012

             AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

                 SOUTHWEST BORDER PROSECUTION

                 INITIATIVE FUNDING RECEIVED BY

                  DOÑA ANA COUNTY, NEW MEXICO


                           EXECUTIVE SUMMARY



       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of the Southwest Border Prosecution
Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP)
to Doña Ana County, New Mexico. For the third and fourth quarter of fiscal
year (FY) 2008, Doña Ana County received SWBPI funding totaling $651,386
on a pro-rata basis. For FYs 2009 and 2010, Doña Ana County requested
$1,685,302 in SWBPI funding, which has been approved by OJP but not yet
reimbursed.

       Many drug and other criminal cases occurring along the southwest
border are initiated by a federal law enforcement agency or federal
multi-jurisdictional task forces, e.g., High Intensity Drug Trafficking Areas
and Organized Crime Drug Enforcement Task Forces. Many U.S. Attorneys
have developed prosecution guidelines that govern the most common
violations of federal law. These prosecution guidelines are used by law
enforcement agencies to determine whether to file a case in federal, state,
or county court. As a result, many federally initiated cases occurring near
the southwest border are referred to the state or county for prosecution.

       The SWBPI was established in FY 2002, when Congress began
appropriating funds to reimburse state, county, parish, tribal, and municipal
governments for costs associated with the prosecution of criminal cases
declined by local U.S. Attorneys’ offices. The SWBPI reimburses the eligible
applicants for costs incurred during prosecution for three major categories
based on the types of services provided: (1) prosecution only, (2) pre-trial
detention only, and (3) both prosecution and pre-trial detention.
Reimbursements received from SWBPI funding may be used by applicant
jurisdictions for any purpose not otherwise prohibited by federal law. For
FY 2012, Congress appropriated $10 million for border prosecution initiatives
to reimburse local governments for costs associated with the prosecution of
criminal cases declined by local offices of the United States Attorneys.

      The objective of our audit was to determine if the SWBPI
reimbursements received by Doña Ana County were allowable, supported,
and in accordance with applicable laws, regulations, guidelines, and terms
and conditions of the SWBPI.
       We found that Doña Ana County claimed and was reimbursed for cases
that were ineligible under the SWBPI guidelines. Based on the deficiencies
listed below, we identified questioned costs totaling $205,242. 1 Specifically,
we found that Doña Ana County:

   •	 Received excess pre-trial detention reimbursements totaling $125,987
      for 15 cases that were submitted for detention days in excess of the
      actual number of pre-trial detention days.

   •	 Received unallowable reimbursements totaling $61,570 for 28 cases
      that were submitted under pre-trial detention that did not meet the
      requirements for pre-trial detention.

   •	 Received excess pre-trial detention reimbursements totaling $9,039
      for all cases, which claimed reimbursements using per diem rates that
      exceeded the publicized per diem rates.

   •	 Received unallowable reimbursements totaling $8,167 for one case for
      which the detention related to a probation violation, not a federally
      initiated case.

   •	 Received unsupported reimbursements totaling $384 for one case for
      which the supporting pre-trial detention information was not located.

   •	 Received unallowable reimbursements totaling $95 for one case that
      was investigated or prosecuted during a concurrent period of time with
      a case involving the same defendant that was also submitted for
      reimbursement.

       Additionally, we found that Doña Ana County claimed reimbursements
that were approved but not yet reimbursed for cases that were ineligible
under the SWBPI guidelines. Based on the deficiencies listed below, we
identified funds to better use totaling $84,726. 2 Specifically we found that
Doña Ana County:


       1
         We reduced the total dollar-related findings detailed in Appendix II by the duplicated
questioned costs that were questioned based on other SWBPI criteria. As a result, the total
questioned costs figure excludes duplicate questioned costs that were questioned based on
other SWBPI criteria.
       2
          We reduced the total dollar-related findings detailed in Appendix II by the duplicated
funds to better use that were questioned based on other SWBPI criteria. As a result, the total
funds to better use figure excludes duplicate funds to better use that were questioned based
on other SWBPI criteria.


                                               ii
  •	 Received excess pre-trial detention reimbursements totaling $35,803
     for 10 cases that were submitted for detention days in excess of the
     actual number of pre-trial detention days.

  •	 Received unallowable reimbursements totaling $13,707 for three cases
     that were investigated or prosecuted during a concurrent period of
     time with cases involving the same defendant that were also submitted
     for reimbursement.

  •	 Received excess pre-trial detention reimbursements totaling $25,005
     for all cases, which claimed reimbursements using per diem rates that
     exceeded the publicized per diem rates.

  •	 Received unallowable reimbursements totaling $5,445 for 52 cases
     that were submitted under pre-trial detention that did not meet the
     requirements for pre-trial detention.

  •	 Received unsupported reimbursements totaling $4,677 for one case for
     which the supporting pre-trial detention information was not located.

  •	 Received unallowable reimbursements totaling $88 for one case for
     which the detention booking date was after the case was disposed.

     These issues are discussed in detail in the Findings and
Recommendations section of the report. Our audit Objectives, Scope, and
Methodology appear in Appendix I.




                                    iii
                                     TABLE OF CONTENTS

INTRODUCTION ................................................................................. 1


      Background.......................................................................... 1


FINDINGS AND RECOMMENDATIONS ................................................. 5


      Case Eligibility ...................................................................... 5


Recommendations.............................................................................. 8


APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY .................. 10


APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS .............. 11


APPENDIX III: DETAILS OF QUESTIONED COSTS............................. 13


APPENDIX IV: DETAILS OF FUNDS TO BETTER USE .......................... 16


APPENDIX V: DOÑA ANA COUNTY’S RESPONSE TO THE

    DRAFT REPORT ....................................................................... 20


APPENDIX VI: OJP’S REPONSE TO THE DRAFT REPORT.................... 23


APPENDIX VII: OIG ANALYSIS AND SUMMARY OF

    ACTIONS NECESSARY TO CLOSE REPORT ................................ 28

            AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

                SOUTHWEST BORDER PROSECUTION

                INITIATIVE FUNDING RECEIVED BY

                 DOÑA ANA COUNTY, NEW MEXICO


                            INTRODUCTION

      The Office of the Inspector General, Audit Division, has completed an
audit and issued a report on the Southwest Border Prosecution Initiative
(SWBPI) funding awarded by the U.S. Department of Justice, Office of
Justice Programs (OJP) to Doña Ana County, New Mexico. The objective of
the audit was to determine whether the SWBPI reimbursements received by
Doña Ana County were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
SWBPI guidelines.

Background

       Prior to 1994, most southwest border counties in the states of Arizona,
California, New Mexico, and Texas did not prosecute drug cases resulting
from the illegal importation of controlled substances at U.S. borders.
Typically, these cases were prosecuted exclusively by U.S. Attorneys in
federal courts. However, in late 1994, U.S. Attorneys, and state and local
prosecutors established partnerships through which the state and local
governments began prosecuting federally referred criminal cases. These
partnerships allowed the U.S. Attorneys to focus on addressing major drug
trafficking organizations and prosecuting deported criminal aliens who
returned to the U.S. illegally. As state and local governments began to
prosecute a growing number of federally referred criminal cases, the
partnerships led to an increased financial and resource burden. Congress
recognized this problem and began appropriating funds under the SWBPI in
fiscal year (FY) 2002 to support state and local prosecutions along the
southwest border.

       For FY 2012, Congress appropriated $10 million in funding for border
prosecution initiatives, Pub. L. No. 112-55 (2011), to reimburse state,
county, parish, tribal, or municipal governments for costs associated with
the prosecution of criminal cases declined by local U.S. Attorneys’ offices.
Reimbursements received from the SWBPI funding may be used by applicant
jurisdictions for any purpose not otherwise prohibited by federal law;
however, the direct support and enhancement of jurisdictions’ prosecutorial
and detention services are encouraged.




                                      1

      The SWBPI reimburses the eligible applicants for costs incurred during
prosecution for three major categories based on the types of services
provided: (1) prosecution only, (2) pre-trial detention only, and (3) both
prosecution and pre-trial detention. For cases disposed of between FY 2002
and the second quarter of FY 2008, each eligible case submitted for
prosecution or pre-trial detention services only received the following
maximum reimbursement, based upon the length of disposition and the
availability of funds:

  •   $1,250 for each case of 1 to 15 days,

  •   $2,500 for each case of 16 to 30 days,

  •   $3,750 for each case of 31 to 90 days, and

  •   $5,000 for each case over 90 days.


      For cases disposed of between FY 2002 and the second quarter of
FY 2008, each eligible case submitted for both prosecution and pre-trial
detention services submitted for reimbursement, received the following
maximum reimbursement based upon the length of disposition and the
availability of funds:

  •   $2,500 for each case of 1 to 15 days,

  •   $5,000 for each case of 16 to 30 days,

  •   $7,500 for each case of 31 to 90 days, and

  •   $10,000 for each case over 90 days.


      For cases disposed between FY 2002 and the second quarter of
FY 2008, the disposition period of a case with both prosecution and pre-trial
detention services was calculated using the prosecution disposition period.
For cases disposed from FYs 2002 through 2006, to meet the pre-trial
detention services requirement, the defendant was required to be detained
overnight, i.e., from one calendar day to the next. For cases disposed after
FY 2006, to meet the pre-trial detention services requirement, the defendant
must be detained for at least 24 hours.

       For cases disposed between the third and fourth quarter of FY 2008,
jurisdictions may only receive reimbursements for the actual number of


                                      2

prosecutor hours charged to the case and the number of days the defendant
was detained prior to the disposition of the case. Prosecutors’ salaries
charged to the case were based on the average hourly rate for the county’s
prosecutors and cannot include fringe benefits. Detention reimbursements
were based on the number of days the defendant was detained prior to the
disposition and are calculated using the published federal detention per diem
rate for the jurisdiction.

        For cases disposed after FY 2008, jurisdictions may receive
reimbursements based on the personnel costs associated with prosecuting a
case, including the personnel costs for prosecutors, paralegals, judges,
judicial staff, public defenders, clerical staff and indigent screening
personnel. The allowable costs are then allocated to each case based on the
percentage of eligible SWBPI cases prosecuted by the jurisdiction out of the
total number of cases prosecuted during the period. This percentage is
calculated separately for misdemeanor cases and felony cases, and then is
multiplied by the total allowable misdemeanor and felony costs to arrive at
total allowable prosecution costs per case. Detention reimbursements are
still based on the number of days the defendant was detained prior to the
disposition and are calculated using the published federal detention per diem
rate for the jurisdiction.

      In New Mexico, only pre-trial detention services are reported in a
county’s online application. Prosecution services are provided through state
agencies and are reflected in a state-level application. The state application
must be completed before counties can complete the application and the
counties are restricted to entering pre-trial detention for cases reported by
the state.

      Pursuant to the SWBPI guidelines, when reimbursement requests
exceed available funding, applicants receive funds on a uniform, pro-rata
basis. The pro-rata reimbursement percentages for Doña Ana County are
shown in Exhibit 1.




                                      3

EXHIBIT 1: PRO-RATA REIMBURSEMENT BASIS TO DOÑA ANA
           COUNTY
                                                                           PERCENTAGE
  REPORTING PERIOD           START DATE              END DATE              REIMBURSED
 FY08, 3rd Quarter            04/01/08               06/30/08               111.05%
 FY08, 4th Quarter            07/01/08               09/30/08               109.15%
 FY09, All Quarters           10/01/08               09/30/09               100.00%
 FY10, All Quarters           10/01/09               09/30/10               100.00%
Source: Office of Justice Programs



     Doña Ana County received reimbursements from SWBPI funds totaling
$651,386 for the third and fourth quarter of FY 2008, as shown in Exhibit 2.


EXHIBIT 2: REIMBURSEMENTS MADE TO DOÑA ANA COUNTY 1
    REPORTING                                             AMOUNT              AMOUNT
      PERIOD            START DATE       END DATE        REQUESTED          REIMBURSED
 FY08, 3rd Quarter       04/01/08        06/30/08         339,764            $ 377,304
 FY08, 4th Quarter       07/01/08        09/30/08         251,111              274,083
 TOTAL                                                                       $651,386
Source: Office of Justice Programs



     For FYs 2009 and 2010, Doña Ana County requested $1,685,302 in
SWBPI funding, which has been approved by OJP but not yet reimbursed, as
shown in Exhibit 3.


EXHIBIT 3: REIMBURSEMENTS REQUESTED BY DOÑA ANA COUNTY
    REPORTING                                             AMOUNT              AMOUNT
      PERIOD            START DATE       END DATE        REQUESTED          REIMBURSED
 FY09, All Quarters      10/01/08        09/30/09         881,076           $   881,076
 FY10, All Quarters      10/01/09        09/30/10         804,225               804,225
 TOTAL                                                                      $1,685,302
Source: Office of Justice Programs




       1
          Throughout the report, the differences in the total amounts are due to rounding, in
that the sum of individual numbers prior to rounding reported may differ from the sum of the
individual numbers rounded.


                                              4

                  FINDINGS AND RECOMMENDATIONS


       We found that Doña Ana County claimed and was both
       reimbursed for and approved but not yet reimbursed for cases
       that were ineligible under the SWBPI guidelines. Specifically, we
       found the county: (1) submitted cases with excess detention
       days, (2) submitted cases that did not meet the requirements for
       pre-trial detention, (3) claimed per diem rates that were higher
       than actual per diem rates, (4) claimed jail time related to a
       probation violation, (5) submitted cases with missing jail
       records, (6) submitted cases that were investigated or
       prosecuted concurrently, and (7) submitted a case despite the
       jail booking date occurring after case disposition. As a result, we
       identified questioned costs totaling $205,242 and funds to better
       use totaling $84,726. 2


Case Eligibility

       Pursuant to the SWBPI guidelines, an eligible case is any federally
initiated criminal case that the U.S. Attorney declined to prosecute and
referred to the state or local government for prosecution, which was
prosecuted by the state or local government and disposed of during an
eligible reporting period. The SWBPI guidelines define federally initiated as a
case resulting from a criminal investigation or an arrest involving federal law
enforcement authorities for a potential violation of federal criminal law. This
may include investigations resulting from multi-jurisdictional task forces,
e.g., High Intensity Drug Trafficking Areas and Organized Crime Drug
Enforcement Task Forces. The SWBPI guidelines further state that, “referred
cases are eligible regardless of whether the case was formally declined and
referred by a U.S. Attorney, or through a blanket federal declination-referral
policy, an accepted federal law enforcement practice, or by federal
prosecutorial discretion.” Federally referred cases that are declined and not
prosecuted by the state or local government are ineligible for
reimbursement.

     We analyzed the 163 cases submitted for reimbursement by Doña Ana
County to determine whether the cases were eligible for reimbursement


       2
          We reduced the total dollar-related findings detailed in Appendix II by the duplicated
questioned costs and duplicated funds to better use that were questioned based on other
SWBPI criteria. As a result, the total questioned costs figure and the total funds to better use
figure exclude duplicate costs that were questioned based on other SWBPI criteria.


                                               5

under the requirements of the SWBPI guidelines. In addition, we reviewed
all cases submitted to determine if: (1) reimbursements were submitted in
the period the cases were disposed, (2) the cases met the pre-trial detention
requirements, (3) there were duplicates or concurrently prosecuted cases,
(4) the approved federal detention rate was used to calculate the detention
reimbursement claimed, and (5) cases had federal law enforcement
involvement. 3

       We found that Doña Ana County claimed and was reimbursed for cases
that were ineligible under the SWBPI guidelines. Based on the deficiencies
listed below, we identified questioned costs totaling $205,242. A detailed
listing of the cases claimed by Doña Ana County that were not eligible for
reimbursement is provided in Appendix III. Specifically, we found that Doña
Ana County: 4

   •	 Received excess pre-trial detention reimbursements totaling $125,987
      for 15 cases that were submitted for detention days in excess of the
      actual number of pre-trial detention days.

   •	 Received unallowable reimbursements totaling $61,570 for 28 cases
      that were submitted under pre-trial detention that did not meet the
      requirements for pre-trial detention.

   •	 Received excess pre-trial detention reimbursements totaling $9,039
      for all cases, which claimed reimbursements using per diem rates that
      exceeded the publicized per diem rates.

   •	 Received unallowable reimbursements totaling $8,167 for one case for
      which the detention related to a probation violation, not a federally
      initiated case.

   •	 Received unsupported reimbursements totaling $384 for one case for
      which the supporting pre-trial detention information was not located.



       3
          In addition to reviewing information for Doña Ana County, we also reviewed the
related prosecution information for the State of New Mexico, which was retained by OJP and
the state. This allowed us to verify that the pre-trial detention reported by the county was
related to cases that were federally initiated and to ensure no jail time was reported after the
disposition date.
       4
         The number of unallowable cases detailed includes cases that have duplicate
questioned costs because the cases were questioned previously, based on other SWBPI
reimbursement criteria. The total amount of duplicate questioned costs has been reduced
from the total dollar-related findings detailed in Appendix II.


                                               6

   •	 Received unallowable reimbursements totaling $95 for one case that
      was investigated or prosecuted during a concurrent period of time with
      a case involving the same defendant that was also submitted for
      reimbursement.

       Additionally, we found that Doña Ana County claimed reimbursements
that were approved but not yet reimbursed for cases that were ineligible
under the SWBPI guidelines. Based on the deficiencies listed below, we
identified funds to better use totaling $84,726. A detailed listing of the
cases claimed by Doña Ana County that were not eligible for reimbursement
is provided in Appendix IV. Specifically, we found that Doña Ana County: 5

   •	 Received excess pre-trial detention reimbursements totaling $35,803
      for 10 cases that were submitted for detention days in excess of the
      actual number of pre-trial detention days.

   •	 Received unallowable reimbursements totaling $13,707 for three cases
      that were investigated or prosecuted during a concurrent period of
      time with cases involving the same defendant that were also submitted
      for reimbursement.

   •	 Received excess pre-trial detention reimbursements totaling $25,005
      for all cases, which claimed reimbursements using per diem rates that
      exceeded the publicized per diem rates.

   •	 Received unallowable reimbursements totaling $5,445 for 52 cases
      that were submitted under pre-trial detention that did not meet the
      requirements for pre-trial detention.

   •	 Received unsupported reimbursements totaling $4,677 for one case for
      which the supporting pre-trial detention information was not located.

   •	 Received unallowable reimbursements totaling $88 for one case for
      which the detention booking date was after the case was disposed.




       5
          The number of unallowable cases detailed includes cases that have duplicate funds
to better use because the cases were questioned previously, based on other SWBPI
reimbursement criteria. The total amount of duplicate funds to better has been reduced from
the total dollar-related findings detailed in Appendix II.


                                             7

Recommendations

       We recommend that OJP:

1.	    Remedy $125,987 in unallowable questioned costs received by Doña
       Ana County for 15 cases that were submitted for detention days in
       excess of the actual number of pre-trial detention days.

2.	    Remedy the $61,570 in unallowable questioned costs received by Doña
       Ana County for 28 cases that were submitted under pre-trial detention
       that did not meet the requirements for pre-trial detention.

3.	    Remedy the $9,039 in unallowable questioned costs received by Doña
       Ana County for all cases, which claimed reimbursements using per
       diem rates that exceeded the publicized per diem rates.

4.	    Remedy the $8,167 in unallowable questioned costs received by Doña
       Ana County for one case for which the detention related to a probation
       violation, not a federally initiated case.

5.	    Remedy the $384 in unsupported questioned costs received by Doña
       Ana County for one case for which the supporting pre-trial detention
       information was not located.

6.	    Remedy the $95 in unallowable questioned costs received by Doña Ana
       County for one case that was investigated or prosecuted during a
       concurrent period of time with a case involving the same defendant
       that was also submitted for reimbursement.

7.	    Remedy the $35,803 in funds to better use requested, but not yet
       received by Doña Ana County for 10 cases that were submitted for
       detention days in excess of the actual number of pre-trial detention
       days. 6




       6
         As discussed in appendix VII, our draft audit report excluded from
recommendation 7 funds to better use for a case that were reported, but duplicated with
recommendation 8. Recommendation 8 in this final audit report does not include those costs.
Therefore, we included appropriate funds to better use for the case in recommendation 7.



                                             8

8.	    Remedy the $13,707 in funds to better use requested, but not yet
       received by Doña Ana County for three cases that were investigated or
       prosecuted during a concurrent period of time with cases involving the
       same defendant that were also submitted for reimbursement. 7

9.	    Remedy the $25,005 in funds to better use requested, but not yet
       received by Doña Ana County for all cases, which claimed
       reimbursements using per diem rates that exceeded the publicized per
       diem rates. 8

10.	   Remedy the $5,445 in funds to better use requested, but not yet
       received by Doña Ana County for 52 cases that were submitted under
       pre-trial detention that did not meet the requirements for pre-trial
       detention.

11.	   Remedy the $4,677 in funds to better use requested, but not yet
       received by Doña Ana County for one case for which the supporting
       pre-trial detention information was not located.

12.	   Remedy the $88 in funds to better use requested, but not yet received
       by Doña Ana County for one case for which the detention booking date
       was after the case was disposed.




       7
         Our draft audit report reported $25,160 in funds to better use for
recommendation 8. However, subsequent analysis discussed in appendix VII reduced this to
$13,707.
       8
         As discussed in appendix VII, our draft audit report excluded from recommendation 9
funds to better use for a case that were reported, but duplicated with recommendation 8.
Recommendation 8 in this final audit report does not include those costs. Therefore, we
included appropriate funds to better use for the case in recommendation 9.


                                             9

                                                               APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of the audit was to determine whether reimbursements
claimed for costs under the SWBPI are allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI guidelines.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. The
scope of our audit included reimbursements received by Doña Ana County
for the third quarter of FY 2008 through FY 2011.

      We tested compliance with what we consider to be the important
conditions of the reimbursements under the SWBPI. Unless otherwise stated
in our report, the criteria we audit against are contained in the SWBPI
guidelines. We tested Doña Ana County SWBPI activities in case eligibility
and compliance with regulations.

      In addition, our testing was conducted by judgmentally selecting a
sample of cases submitted for reimbursement. Judgmental sampling design
was applied to obtain broad exposure to numerous facets of the
reimbursements reviewed. This non-statistical sample design does not allow
projection of the test results to all reimbursements received.

       We did not test internal controls for Doña Ana County as a whole. The
Single Audit Report for Doña Ana County was prepared under the provisions
of Office of Management and Budget Circular A-133 for the fiscal year ended
June 30, 2011. We reviewed the independent auditor's assessment to
identify internal control weaknesses and significant non-compliance issues
related to Doña Ana or federal programs. The auditor’s assessment
disclosed no material control weaknesses or significant non-compliance
issues related to the SWBPI. In addition, we performed testing of source
documents to assess the accuracy of reimbursement requests; however, we
did not test the reliability of the financial management system as a whole.




                                     10

                                                                               APPENDIX II

                   SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                                AMOUNT              PAGE

Excess reimbursements for cases that
                                                                  $125,987              6
  claimed pre-trial detention days in excess
  of actual detention days.

Unallowable reimbursements for cases that
                                                                     61,665             6
  did not meet the pre-trial detention
  requirement.

Excess reimbursements for cases using per
                                                                     13,031             6
  diem rates that exceeded publicized per
  diem rates.

Unallowable reimbursements for cases where
                                                                      8,167             6
  the detention related to a probation
  violation.

Unsupported cases for which the supporting
                                                                         384            6
  pre-trial detention information could not
  be located.

Unallowable cases that were prosecuted                                    95            7
  concurrently.

Questioned Costs:                                               $209,328

Less Duplicated Questioned Costs: 9                              ($4,086)

Total Questioned Costs: 10                                      $205,242




         9
           We reduced the total dollar-related findings by the duplicated questioned costs that
  were questioned based on other SWBPI criteria. As a result, the total questioned costs figure
  excludes duplicate questioned costs that were questioned based on other SWBPI criteria.
         10
             Questioned Costs are expenditures that do not comply with legal, regulatory or
  contractual requirements, or are not supported by adequate documentation at the time of
  the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
  offset, waiver, recovery of funds, or the provision of supporting documentation.


                                               11

                                                                  AMOUNT              PAGE
FUNDS TO BETTER USE:

Excess reimbursements for cases that
   claimed pre-trial detention days in excess                      $35,893              7
   of actual detention days.

Excess reimbursements for cases using per
   diem rates that exceeded publicized per                           25,912             7
   diem rates

Unallowable cases that were prosecuted
                                                                     13,707             7
  concurrently.

Unallowable reimbursements for cases that
  did not meet the pre-trial detention                                5,535             7
  requirement.

Unsupported cases for which the supporting
  pre-trial detention information could not                           4,677             7
  be located.

Unallowable cases for which the jail booking
  dates were after the cases were disposed.                               88            7


Funds To Better Use:                                              $85,812

Less Duplicated Funds To Better Use: 11                          ($1,087)

Total Funds To Better Use: 12
                                                                  $84,726




         11
             We reduced the total dollar-related findings by the duplicated funds to better use
  that were questioned based on other SWBPI criteria. As a result, the total funds to better use
  figure excludes duplicate questioned costs that were questioned based on other SWBPI
  criteria.
         12
            Funds to Better Use are requested expenditures that do not comply with legal,
  regulatory or contractual requirements, or are not supported by adequate documentation at
  the time of the audit, or are unnecessary or unreasonable. Funds to better use may be
  remedied by not approving or disallowing future payments or the provision of supporting
  documentation.


                                               12

                                                                            APPENDIX III

                        DETAILS OF QUESTIONED COSTS 13

                  CASES REIMBURSED FOR EXCESS DETENTION DAYS
                                                DETENTION
                                                  DAYS           ACTUAL
                                REPORTING       REPORTED        DETENTION         AMOUNT
       CASE NO.                   PERIOD         TO OJP           DAYS          QUESTIONED
D-307-CR-2007-00798            FY 08-3RD QTR       367               1           $ 35,165
D-307-CR-2008-00367            FY 08-4TH QTR       232               3             21,643
D-307-CR-2007-01368            FY 08-3RD QTR       230              14             20,753
D-307-CR-2008-00038            FY 08-4TH QTR       257             110             13,893
D-307-CR-2008-00189            FY 08-3RD QTR       129              55              7,110
D-307-CR-2008-00497            FY 08-4TH QTR       125              51              6,994
D-307-CR-2007-01401            FY 08-3RD QTR       232             163              6,629
D-307-CR-2008-01108            FY 08-4TH QTR        78               8              6,616
D-307-CR-2008-00442            FY 08-3RD QTR        81              22              5,669
D-307-CR-2008-00538            FY 08-4TH QTR       134             123              1,040
D-307-CR-2008-00503            FY 08-3RD QTR        75              74                 96
D-307-CR-2007-01064            FY 08-3RD QTR       280             279                 96
D-307-JR-2008-00327            FY 08-4TH QTR        21              20                 95
D-307-JR-2008-00326            FY 08-4TH QTR        21              20                 95
D-307-CR-2008-01130            FY 08-4TH QTR        14              13                 95
 TOTAL                                                                          $125,987



                      CASES WITHOUT 24 HOURS OF DETENTION
                                                   DETENTION
                                                     DAYS         ACTUAL
                                   PERIOD          REPORTED      DETENTION       AMOUNT
       CASE NO.                 SUBMITTED           TO OJP          DAYS        QUESTIONED
D-307-CR-2007-01468            FY 08-3RD QTR          315        < 24-hours      $ 30,265
D-307-CR-2008-00554            FY 08-4TH QTR          144        < 24-hours        13,610
D-307-CR-2008-00838-A          FY 08-4TH QTR          130        < 24-hours        12,286
D-307-CR-2008-00340            FY 08-4TH QTR           29        < 24-hours         2,741
D-307-CR-2007-00342            FY 08-3RD QTR            2        < 24-hours           192
D-307-CR-2008-00172            FY 08-3RD QTR            2        < 24-hours           192
D-307-CR-2008-00339            FY 08-3RD QTR            2        < 24-hours           192


       13
           All tables in this appendix reflect questioned costs for all cases questioned,
including duplicated questioned costs. Appendix II details dollar-related findings and the
adjustment for duplicated costs.


                                              13
                                                 DETENTION
                                                   DAYS        ACTUAL
                                 PERIOD          REPORTED     DETENTION      AMOUNT
       CASE NO.                SUBMITTED          TO OJP         DAYS       QUESTIONED
D-307-CR-2008-00343           FY 08-3RD QTR          2        < 24-hours          192
D-307-CR-2008-00414           FY 08-4TH QTR          2        < 24-hours          189
D-307-CR-2006-00921           FY 08-3RD QTR          1        < 24-hours           96
D-307-CR-2007-00490           FY 08-3RD QTR          1        < 24-hours           96
D-307-CR-2007-00788           FY 08-3RD QTR          1        < 24-hours           96
D-307-CR-2007-01077           FY 08-3RD QTR          1        < 24-hours           96
D-307-CR-2007-01105           FY 08-3RD QTR          1        < 24-hours           96
D-307-CR-2007-01523           FY 08-3RD QTR          1        < 24-hours           96
D-307-CR-2006-01042           FY 08-4TH QTR          1        < 24-hours           95
D-307-CR-2006-01605           FY 08-4TH QTR          1        < 24-hours           95
D-307-CR-2007-00164           FY 08-4TH QTR          1        < 24-hours           95
D-307-CR-2007-00454           FY 08-4TH QTR          1        < 24-hours           95
D-307-CR-2007-01399           FY 08-4TH QTR          1        < 24-hours           95
D-307-CR-2007-01400           FY 08-4TH QTR          1        < 24-hours           95
D-307-CR-2007-01648           FY 08-4TH QTR          1        < 24-hours           95
D-307-CR-2008-00029           FY 08-4TH QTR          1        < 24-hours           95
D-307-CR-2008-00061           FY 08-4TH QTR          1        < 24-hours         95 14
D-307-CR-2008-00190           FY 08-4TH QTR          1        < 24-hours           95
D-307-CR-2008-00258           FY 08-4TH QTR          1        < 24-hours           95
D-307-CR-2008-00502           FY 08-4TH QTR          1        < 24-hours           95
D-307-CR-2008-00961           FY 08-4TH QTR          1        < 24-hours           95
Total                                                                        $61,665




       14
           Case D-307-CR-2008-00061, which included $95 in costs for not meeting the
pre-trial detention requirement, was excluded from questioned costs for recommendation 2 to
avoid duplicate questioned costs for recommendation 6, which also includes the case.


                                            14
               CASES REIMBURSED FOR EXCESS DETENTION BASED

                 ON OVERSTATED DETENTION PER DIEM RATES

                                                        DETENTION
                                                          DAYS
                                      REPORTING        REPORTED TO       AMOUNT
             CASES                     PERIOD              OJP         QUESTIONED
AN EXCESS RATE OF $2.93 FOR ALL
DETENTION CASES REIMBURSED BY OJP     FY 08-3RD QTR       3,927          $ 12,777
(PRO-RATA REIMBURSEMENT %: 111.05%)
AN EXCESS RATE OF $0.08 FOR ALL
DETENTION CASES REIMBURSED BY OJP     FY 08-4TH QTR       2,900                253
(PRO-RATA REIMBURSEMENT %: 109.15%)
TOTAL                                                                    $13,031



                 CASES REIMBURSED FOR PRE-TRIAL DETENTION

                     RELATED TO A PROBATION VIOLATION

                                                 DETENTION
                                REPORTING      DAYS REPORTED         AMOUNT
            CASE NO.              PERIOD          TO OJP          QUESTIONED
      D-307-CR-2007-01544      FY 08-3RD QTR         85            $ 8,167
       TOTAL                                                       $8,167




                          CASES WITH NO JAIL RECORD
                                          REPORTING        AMOUNT
                     CASE NO.               PERIOD       QUESTIONED
               D-0905-CR-200700787       FY 08-3RD QTR     $ 384
                TOTAL                                      $384




                 CASES THAT WERE CONCURRENTLY PROSECUTED
                                        REPORTING          AMOUNT
                  CASE NO.                PERIOD         QUESTIONED
            D-307-CR-2008-00061        FY 08-4TH QTR       $ 95
             TOTAL                                         $95




                                         15

                                                                              APPENDIX IV

                      DETAILS OF FUNDS TO BETTER USE 15

                  CASE REIMBURSEMENTS REQUESTED BUT NOT YET
                      RECEIVED FOR EXCESS DETENTION DAYS
                                               DETENTION             ACTUAL
                              REPORTING      DAYS REPORTED        DETENTION       FUNDS TO
       CASE NO.                PERIOD           TO OJP              DAYS         BETTER USE
 D-307-CR-200701056            FY 2009            229                 42          $ 16,501
 D-307-CR-200800296            FY 2009            154                 63             8,030
 D-307-CR-200800710            FY 2009            244               177              5,912
 D-307-CR-201000352            FY 2010            127               105              1,984
 D-307-CR-200801200            FY 2009             21                  1             1,765
 D-307-CR-200900740            FY 2010            160               153                631
 D-307-CR-201000057            FY 2010            200               195                451
 D-307-CR-200800693            FY 2009             17                 13               353
 D-307-CR-200700087            FY 2009              3                  1               177
 D-307-CR-200901232            FY 2010             34                 33              90 16
  TOTAL                                                                           $35,893



     CASE REIMBURSEMENTS REQUESTED BUT NOT YET RECEIVED FOR EXCESS

        DETENTION BASED ON OVERSTATED DETENTION PER DIEM RATES

                                                          DETENTION
                                         REPORTING      DAYS REPORTED             FUNDS TO
             CASES                        PERIOD           TO OJP                BETTER USE
AN EXCESS RATE OF $1.30 FOR ALL
                                          FY 2009            9,985                $ 12,981
DETENTION CASES REIMBURSED BY OJP
AN EXCESS RATE OF $1.45 FOR ALL
                                          FY 2010            8,918                   12,931
DETENTION CASES REIMBURSED BY OJP
TOTAL                                                                             $25,912




       15
           All tables in this appendix reflect funds to better use for all cases questioned,
including duplicated funds to better use. Appendix II details dollar-related findings and the
adjustment for duplicated costs.
       16
          Case D-307-CR-200901232, which included $90 in costs for excess detention days,
was excluded from funds to better use for recommendation 7 to avoid duplicate funds to
better use for recommendation 8, which also includes the case.


                                              16
             CASES THAT WERE PROSECUTED CONCURRENTLY
                                 REPORTING         FUNDS TO
              CASE NO.            PERIOD          BETTER USE
        D-307-CR-200901023        FY 2010           10,551
        D-307-CR-200901232        FY 2010            3,066
        D-307-CR-200901167        FY 2010               90
         TOTAL                                    $13,707



               CASES WITHOUT 24 HOURS OF DETENTION
                                    DETENTION       ACTUAL      FUNDS TO
                      PERIOD      DAYS REPORTED    DETENTION     BETTER
      CASE NO.       SUBMITTED       TO OJP           DAYS        USE
D-307-CR-200900178    FY 2010           2          < 24-hours   $ 180
D-307-CR-200900431    FY 2010           2          < 24-hours      180
D-307-CR-200901145    FY 2010           2          < 24-hours      180
D-307-CR-200901228    FY 2010           2          < 24-hours      180
D-307-CR-200700352    FY 2009           2          < 24-hours      176
D-307-CR-200800918    FY 2009           2          < 24-hours      176
D-307-CR-200801026    FY 2009           2          < 24-hours      176
D-307-CR-200801420    FY 2009           2          < 24-hours      176
D-307-CR-200801876    FY 2009           2          < 24-hours      176
D-307-CR-200900347    FY 2009           2          < 24-hours      176
D-307-CR-200800685    FY 2010           1          < 24-hours       90
D-307-CR-200801843    FY 2010           1          < 24-hours       90
D-307-CR-200900111    FY 2010           1          < 24-hours       90
D-307-CR-200900210    FY 2010           1          < 24-hours       90
D-307-CR-200900216    FY 2010           1          < 24-hours       90
D-307-CR-200900319    FY 2010           1          < 24-hours       90
D-307-CR-200900370    FY 2010           1          < 24-hours       90
D-307-CR-200900377    FY 2010           1          < 24-hours       90
D-307-CR-200900378    FY 2010           1          < 24-hours       90
D-307-CR-200900387    FY 2010           1          < 24-hours       90
D-307-CR-200900557    FY 2010           1          < 24-hours       90
D-307-CR-200900561    FY 2010           1          < 24-hours       90
D-307-CR-200900686    FY 2010           1          < 24-hours       90
D-307-CR-200900774    FY 2010           1          < 24-hours       90
D-307-CR-200900912    FY 2010           1          < 24-hours       90
D-307-CR-200901014    FY 2010           1          < 24-hours       90
D-307-CR-200901015    FY 2010           1          < 24-hours       90
D-307-CR-200901052    FY 2010           1          < 24-hours       90


                                  17

                                              DETENTION            ACTUAL        FUNDS TO
                              PERIOD        DAYS REPORTED       DETENTION         BETTER
       CASE NO.              SUBMITTED         TO OJP              DAYS            USE
 D-307-CR-200901079           FY 2010             1             < 24-hours           90
 D-307-CR-200901096           FY 2010             1             < 24-hours           90
 D-307-CR-200901144           FY 2010             1             < 24-hours           90
 D-307-CR-200901167           FY 2010             1             < 24-hours          90 17
 D-307-CR-200901186           FY 2010             1             < 24-hours           90
 D-307-CR-201000383           FY 2010             1             < 24-hours           90
 D-307-JR-201000269           FY 2010             1             < 24-hours           90
 D-307-CR-200800402           FY 2009             1             < 24-hours           88
 D-307-CR-200800402           FY 2009             1             < 24-hours           88
 D-307-CR-200800508           FY 2009             1             < 24-hours           88
 D-307-CR-200800650           FY 2009             1             < 24-hours           88
 D-307-CR-200800663           FY 2009             1             < 24-hours           88
 D-307-CR-200800663           FY 2009             1             < 24-hours           88
 D-307-CR-200800706           FY 2009             1             < 24-hours           88
 D-307-CR-200800849           FY 2009             1             < 24-hours           88
 D-307-CR-200800909           FY 2009             1             < 24-hours           88
 D-307-CR-200800946           FY 2009             1             < 24-hours           88
 D-307-CR-200800946           FY 2009             1             < 24-hours           88
 D-307-CR-200801057           FY 2009             1             < 24-hours           88
 D-307-CR-200801173           FY 2009             1             < 24-hours           88
 D-307-CR-200801576           FY 2009             1             < 24-hours           88
 D-307-CR-200801693           FY 2009             1             < 24-hours           88
 D-307-CR-200900016           FY 2009             1             < 24-hours           88
 D-307-CR-200900175           FY 2009             1             < 24-hours           88
 Total                                                                           $5,535



                             CASES WITH NO JAIL RECORD
                                              REPORTING        FUNDS TO
                       CASE NO.                PERIOD         BETTER USE
                 D-307-CR-200900104            FY 2009          $ 4,677
                  TOTAL                                         $4,677




       17
           Case D-307-CR-200901167, which included $90 in costs for not meeting the

pre-trial detention requirement, was excluded from funds to better use for recommendation

10 to avoid duplicate funds to better use for recommendation 8, which also includes the case.



                                             18
                     CASES WITH JAIL BOOKING DATES

                     AFTER THE CASES WERE DISPOSED

                     REPORTING   DISPOSITION                   FUNDS TO
     CASE NO.         PERIOD        DATE       BOOKING DATE   BETTER USE
D-307-CR-200800918    FY 2009    02/03/2009     02/06/2009      $ 88
 TOTAL                                                           $88




                                   19

                                                                                                          APPENDIX V

 DOÑA ANA COUNTY’S RESPONSE TO THE DRAFT REPORT


6iE~~                           fA.     -     ---"f /7



~
~ ,7     •.      -:-\,          ~ona         crrna county                 DETENTION CENTER

• .' ~~.:;J~                   1850 Copper Loop' Las Cruces, New Mexico 88005' (575) 647-7600
 ~y,,\(.O j
    •      M£~>c'
            .. ..
        ~"'.- "'-",- ~
                                                         July 18, 2012



           U.S. Department of Justice
           Office of the Inspector General
           Denver Regional Audit Office
           1120 Lincoln, Suite 1500
           Denver, Colorado 80203


           Dear Mr. Sheeren:

          The Dona Ana County Detention Center (DACDC) has received your draft audit report on the
          Southwest Border Prosecution Initiative (SWBPI) funds reimbursed to Dona Ana County, New
          Mexico.

          In response to the Audit we enter the following , DACDC has briefly made a break down or
          explanation of your finding from pages 13 t018 data findings.

          The SWBPI Audit identified several areas of overpayment. DACDC recognizes that some
          overpayment was made , however in some areas DACDC contends that SWBPI used guidelines
          not applicable for some of the discrepancies identified. The following responses will clarify our
          viewpoint based on the audit submitted by the SWBPI.

          Starting with INELIGIBLE CASES:

          SWBPI used FY2012 guidelines "inmate must be held in custody at least 24 hour period".
          DACDC submits that based on copies of the guidelines FY2008 to FY2010 reflect that this
          requirement did not exist or appear prior to FY2012 Guidelines. Our assessment suggests that
          our submittals were accurate and in compliance with FY2008 - FY 2010 guidelines. We are
          requesting that funding "audit finding" is rescinded based on this stipulation and be replaced
          pursuant to existing guidelines of FY2008 to FY201 O.

                         -Note- DACDC adhered to FY2012 (24 hour guidelines); for FY2011 {retro-submittal}
                         most recent submittals.

                                                           Page 13

          Cases reimbursed for excess Detention Days:

          Copies of the NM case Report and Inmates Face sheet have been reviewed . Due to many of
          the dates from the Master Spread Sheet and what is reported in your audit, copies of the NM
          Court Research on case numbers and Jail Management have been copied for your review. We
          concur DACDC error for tracking actual sentenced dates by District Court reporting for FY2008
          and FY2009.



                                                                                     All Equal Emp/oyment Opportunity Agency




                                                             20

Case without 24 Hours of Detention:

Refer to Ineligible cases [heading note}, comments on the past guidelines on >24 hours
detention.

                                         Page 13 & 14

Cases Reimbursed For Excess Detention Based on Overstated Detention Per Diem Rate

Upon re-evaluation of audit response, excess rate may be reassessed.

                                            Page 15

Cases Reimbursed For Pre-Trial Detention Related to a Probation Violation:

This case [D-307-CR-2007-01544j was a DACDC reporting error. The inmate was brought
back from Prison in continuation of a District Court case.

Cases with No Jail Record:

This case [D-0905-CR-200700787j is not reflected as a Dona Ana County District Court case,
nor can we find an appearance on our master spreadsheet reported to SWBPI , additionally this
case number cannot be located in the NM Court Cases Review.

Cases That Were Concurrently Prosecuted:

DACDC is unable to locate dual court case numbers, suggesting concurrent prosecution or
charge.

                                           Page 16

Cases reimbursed for excess Detention Days:

Starting FY2009 guidelines, DACDC was tasked to reconcile with Dona Ana County District
Court applications for SWBPI cases. DACDC has only submitted cases concurring with
submittals originally and initially by the District Court. DACDC recognizes that incorrect data
submitted according for payment may be in error. DACDC acknowledges that SWBPI
reconciliation with District Court may have revealed adjustments by the Court not made evident
to DACDC resulting in inadvertent overpayment.

Cases Reimbursed For Excess Detention Based on Overstated Detention Per Diem Rate

DACDC recognizes that upon re-evaluation of audit response, excess rate may be reassessed.

                                         Page 17 & 18

Cases That Were Concurrently Prosecuted:

DACDC is unable to locate dual court case numbers, suggesting concurrent prosecution or
charge.




                                             21

Case without 24 Hours of Detention:

Refer to Ineligible cases [heading nole], comments on the past guidelines on >24 hours
detention.

                                           Page 18

Cases With No Jail Record:

This case number is a j uvenile number at the time of detention ... therefore case number is D-
307-JR-200900104 (actual juvenile number) but under federal prosecution. Your audit may not
have researched juvenile numbers. Upon re-evaluation of audit response, payment for
"unfounded Jail record" may be reassessed.

Cases with Jail Booking Dates After the Cases were Disposed:

Our audit of this record reflects that D-307-CR-200B0091B was not booked on 0210312009.
SWBPI has identified this record as receiving a court disposition on 0210312009. Inmate was
first booked into DACDC on 0210612009 and court disposition recorded on 02116/2009. Face
sheet and Record check included.

Please accept this response as our position on your "draft audit" submittal. We await your
review of our responses of the Southwest Border Prosecution initiative (SWBPI) submitted by
Dona Ana County FY200B thru FY2010.

Respectfully,




Chris Barela, Director
Dona Ana County Detention Center




                                             22

                                                                                        APPENDIX VI

        OJP’S RESPONSE TO THE DRAFT REPORT
                                                      u.s. Ilepartment of J ustice
                                                     Office of Justice Programs

                                                      Office oj Audit. Assessment, and Management




MEMORANDUM TO:                David M. Sheeren
                              Regional Audit Manager
                              Denver Regional Audit Office
                              Office of the Inspector General

FROM:                         Maureen    A...,.H~e~~eJ;x:r¥ I   _    J.
                              Director       y VL>'\. ~Y
SUBJECT:                      Response to the Draft Audit Report, Audit ofthe Office 0/
                              Justicc Program~·. Sou[hwe~'1 Border Proseclltion lniliafivr
                              Funding Received by Dona Ana COllllly, New Me:dco

The Office of Justice Programs (OJP) appreciates the opportunity to review and comment
on the Office of the Inspector General's (OlO's) draft report, entitled "Audit of the Office
of Justice Programs Southwest Border Prosecution Initiati ve Funding Received by Dona
Ana County, New Mexico," dated June 18,2012. We consider the subject report resolved
and request written acceptance of this action from your office.

As a result orthe OIG's audit of the Southwest Border Prosecution Initiative (SWBPn
Program in fiscal years (FYs) 2008 and 20 I 0, and the Office of Audit, Assessment, and
Management's (OAAM) rev iew of this program in FY 20 II, the B\lreau of Justice
Assistance (BJA) made the following enhancemenls: 1) modified the SWBPJ application
system to require that each prosecution case submitted by ajurisdiction for
reimbursement contain the case/docket number, defendant's fi rst and last name, refening
Federal agency, rcferred date, resolution type, and resolved date; 2) established new
internal guidelines to ensure that SWBPJ reimbursements are analyzed to identify
anomalies that may indicate unallowable or unsupported payments to specific
jurisdictions; and 3) implemented a process to identify overlapping requests for detention
expenses between SWBPI and the State Criminal Alien Assistance Program.




                                               23

B1A' s enhanced monitoring process over SWBP! payments has resulted in increased
scrutiny, and now includes a review ofa minimum of 10% of the annual payments made
under the program. It should be noted that Dona Ana County was not included in any of
BlA's samples of SWBPI case file reviews.

The report contains 12 recommendations, 5205,242 in questioned costs, and $94,042 in
funds to be put to better use. However, the $94,042 have been requested by Doila Ana
County, but not yet provided by BJA. The following is OJP' s analysis of the draft audit
report recommendations. I'·or case of review, the recommendations are restated in bold
and are followed by our resJXln$C.

I.     We recommend that OJP remedy the $125,987 in unallowable questioned
       costs received by DODa Ana County for 15 cases that wt!re submitted for
       detention days in excess of the actual numher of pre-trial detention days.

       We agrec with the recommendation. We will coordinate with Dona Ana County
       to remedy the $125,987 in questioned costs related to the 15 cases that were
       submitted for detention days in excess oflhc actual number of pre-trial detention
       days.

2.     We recommend that OIP remedy the S6 1,570 in unallowa ble questioned
       costs received by DaDa Ana County for 28 cases that were submitted under
       pre-trial detention that did not mect the requiremrnts for pre-trial detention.

       We agree with the recommendation. We will coordinate with Dona Ana County
       to remedy the $61 ,570 in questioned costs associated with the 28 cases that were
       submitted under pre-trial detention that did not meet the requirements for pre-tria!
       detention.

3.     We recommend that OJP remedy thc $9,039 in unallowa ble questioned costs
       rcceind by Doua Ana County for all cases, which claimed reimbursemen ts
       usin g per diem rates that exceeded the publicized per dicm rates.

       We agree with the recommendation. We will coordinate with Dona Ana County
       to remedy the $9,039 in questioned costs associated with all of the cases, which
       claimed reimbursements using per diem rates that exceeded the publicized per
       diem rates.

4.     We recommend that OJP remedy the $8,167 in unallowable questioned costs
       received by Doila Ana County for one ease for which the detention related to
       a probation violation, not a Federally initiated case.

       We agrce with the recommendation. We will coordinate with Dona Ana County
       to remedy the $8, 167 ill questioned costs related to the one case that was not
       Federally initiated.




                                           24

5.   We recommend that OJ)' remedy the S384 in unsupported questioned costs
     received by Dona Ana County for one case for which the supporting pre-trial
     detention information was not located.

     We agree wi th the recommendation. We will coord inate with Dona Ana County
     to remedy the $384 in questioned costs associated with the one ca~e for which the
     supponing pre-trial detention infonnation was not located.

6.   We recommend that OJP remedy the $95 in unallowable questioned costs
     received by nona Ana County for one case that was investigated or
     IJrOSecuted during a concurrent period of time with a case involving the .~ am e
     defendant that was also submitted for reimbursement.

     We agree with the recommendation. We will coordinate with Dona Ana County
     to remedy the $95 in questioned costs related to the one case that was investigated
     or prosecuted during a concurrent period of time with a ease involving the same
     defendant that was also submiHed for reimbursement.

7.   We recommend tbat OJP remedy the $33,819 in funds to better usc
     requested, but not yet received, by Uoila Alia C oullty for 10 cases that were
     ~ ubmitted for detention days in excess of the actual number of pre-trial
     detention days.

     We agrec with the recommendation. We will coordinate with Dona Ana County
     to remcdy the $33 ,&19 in funds to be put to better use which were requested, but
     not yet received, for the 10 cases that were submitted for detention days in excess
     of the actual number of pre-trial detention days.

8.   We recommend that OJP remedy the 525,160: in funds to better usc
     requested, but not yet received, by Dona Ana C ounty for four cases that were
     investigated or prosecuted during a concurrent pcriod of time with cases
     involving the same defendant that were also submitted for reimburseOlcut.

     We agree with the recommendation. We will coordinate with Dona Ana County
     to remedy the $25,160 in funds to be put to belief use which were requested, but
     not yet received, for the four cases that were investigated or prosecuted during a
     concurrent period of time, with cases involving the same defendant, that were also
     ~ ubmitte<l for reimbursement.




                                          25

9.     We recommend that OJP remedy the 524,853 ill fund s to better use
       requested, but not yet received, by DOlla Ana C ounty, for all cas~ wbich
       claimed reimbursements using per diem rates that exceeded the pnblieized
       per diem rates.

       We agree with the recommendation. We will eoordinme with Dona Ana County
       to remedy the $24,853 in funds to be put to better usc which were requcstcd, but
       not yet received, for all of the cases which claimed reimbursements using per
       diem rates that exceeded the publicized per diem rates.

10.    We recommend Ihat OJP remedy the $5,445 in fun ds to better usc requested,
       but not yet received, by Ilona Ana County, for 52 cases that were submitted
       under pre-trial detention that did not meet the requirements for pre-trial
       detention.

       We agree with the recommendation. We will ooordinatc with Dona Ana County
       to remedy the $5,445 in funds to be put to better use whieh were requested, but
       not yet received, for the 52 eases that were submitted under pre-trial detention that
       did not meet the requirements for pre-trial detention.

11.    We recommend that OJP remedy the $4,677 in funds to better use requested,
       but not yet received by DORa Ana County, for one case for which the
       supporting pre-trial dctention information wus not located.

       We agrec with the recommendation. We witl eoordinrue with Dona Ana County
       to rcmedy the $4,677 in funds to be put to better use, which were requested, but
       not yet received, [or the one case for which the supponing pre-trial dctention
       infonnation was not located.

12,    We recommend that OJP remedy the S88 in funds to better usc requested,
       but not yet received, by Dona Ana County, for one case for which the
       detention booking date was after the case was disposed.

       We agree with the recommendation. We will coordinate with Dona Ana County
       to remedy the $88 in funds to be put to better usc which were requested, but not
       yet received, for the one case for which the detention booking date was after the
       case was disposed.

lfyou have any questions or require additional information, please eontaet Jeffery A.
Haley, Deputy Director, Audit and Review Division. on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management




                                            26

cc:   Tracey Trautman
      Acting Deputy Direc10r for Prngrams
      Bureau of Justice Assistance

      Amanda LoCicero
      Budget Analyst
      Bureau of Justice Assistance

      Juseph Husted
      Policy Advisor
      Bureau of Justice Assistance

      Maria Anderson
      State Policy Advisor
      Bureau of Justice Assistance

      Louise Duhamel, Ph.D.
      Acting Assistant Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division

      OJP Executive Secretariat
      Control Number 20121 002




                                         27

                                                                     APPENDIX VII

                     OFFICE OF THE INSPECTOR GENERAL

                    ANALYSIS AND SUMMARY OF ACTIONS

                       NECESSARY TO CLOSE REPORT


      The OIG provided a draft of this audit report to OJP and Doña Ana
County. OJP’s response, which is included in Appendix VI of this report,
states that OJP agrees with our recommendations and that it will coordinate
with Doña Ana County to remedy questioned costs and funds to better use.
OJP also states that “BJA’s enhanced monitoring process over SWBPI
payments has resulted in increased scrutiny, and now includes a review of a
minimum of 10 percent of the annual payments made under the program. It
should be noted that Doña Ana County was not included in any of BJA’s
samples of SWBPI case file reviews.” We recognize the changes that OJP
made to the SWBPI program based on recommendations provided in prior
OIG reports. 18 However, questioned costs related to the ineligible cases
submitted must still be remedied. The following provides the OIG analysis of
the response and summary of actions necessary to close the report.

Recommendation Number

   1.	 Resolved. OJP concurred with our recommendation to remedy the
       $125,987 in unallowable questioned costs received by Doña Ana
       County for 15 cases that were submitted for detention days in excess
       of the actual number of pre-trial detention days. OJP stated in its
       response that it will coordinate with Doña Ana County to remedy the
       $125,987 in questioned costs related to the 15 cases that were
       submitted for detention days in excess of the actual number of pre­
       trial detention days.

           This recommendation can be closed when we receive documentation
           that OJP remedied the $125,987 in unallowable questioned costs
           received by Doña Ana County for 15 cases that were submitted for
           detention days in excess of the actual number of pre-trial detention
           days.




      18
           U.S. Department of Justice Office of the Inspector General, Southwest Border
Prosecution Initiative Reimbursement Program, Audit Report 08-22 (March 2008); and U.S.
Department of Justice Office of the Inspector General, Southwest Border Prosecution
Initiative Reimbursements, Audit Report 10-20 (March 2010).



                                          28

   2.	 Resolved. OJP concurred with our recommendation to remedy the
       $61,570 in unallowable questioned costs received by Doña Ana
       County for 28 cases that were submitted under pre-trial detention
       that did not meet the requirements for pre-trial detention. OJP
       stated in its response that it will coordinate with Doña Ana County to
       remedy the $61,570 in questioned costs associated with the 28 cases
       that were submitted under pre-trial detention that did not meet the
       requirements for pre-trial detention. 19

            Doña Ana County’s response, included as Appendix V, page 20 of this
            report, states that the requirement that an inmate be held in custody
            for at least 24 hours did not appear in the guidelines prior to
            FY 2012. Doña Ana County states that it complied with the FY 2008
            through FY 2012 guidelines. However, we reviewed the SWBPI
            guidelines for the third and fourth quarter of FY 2008, the period
            related to the questioned costs outlined in this finding, and identified
            the following language: “An eligible jurisdiction must have held the
            case defendant in a secure facility for 24 hours or more.” The 28
            cases did not meet the requirements for pre-trial detention, based on
            criterion applicable for the submissions questioned.

            This recommendation can be closed when we receive documentation
            that OJP remedied the $61,570 in unallowable questioned costs
            received by Doña Ana County for 28 cases that were submitted under
            pre-trial detention that did not meet the requirements for pre-trial
            detention.

   3.	 Resolved. OJP concurred with our recommendation to remedy the
       $9,039 in unallowable questioned costs received by Doña Ana County
       for all cases, which claimed reimbursements using per diem rates
       that exceeded the publicized per diem rates. OJP stated in its
       response that it will coordinate with Doña Ana County to remedy the
       $9,039 in questioned costs associated with all of the cases, which
       claimed reimbursements using per diem rates that exceeded the
       publicized per diem rates.

            This recommendation can be closed when we receive documentation
            that OJP remedied the $9,039 in unallowable questioned costs
            received by Doña Ana County for all cases, which claimed
            reimbursements using per diem rates that exceeded the publicized


       19
           Case D-307-CR-2008-00061, which included $95 in costs for not meeting the
pre-trial detention requirement, was excluded from questioned costs for recommendation 2 to
avoid duplicate questioned costs for recommendation 6, which also includes the case.


                                            29

    per diem rates.

4.	 Resolved. OJP concurred with our recommendation to remedy the
    $8,167 in unallowable questioned costs received by Doña Ana County
    for one case for which the detention related to a probation violation,
    not a federally initiated case. OJP stated in its response that it will
    coordinate with Doña Ana County to remedy the $8,167 in
    questioned costs related to the one case that was not federally
    initiated.

    This recommendation can be closed when we receive documentation
    that OJP remedied the $8,167 in unallowable questioned costs
    received by Doña Ana County for one case for which the detention
    related to a probation violation, not a federally initiated case.

5.	 Resolved. OJP concurred with our recommendation to remedy the
    $384 in unsupported questioned costs received by Doña Ana County
    for one case for which the supporting pre-trial detention information
    was not located. OJP stated in its response that it will coordinate
    with Doña Ana County to remedy the $384 in questioned costs
    associated with the one case for which the supporting pre-trial
    detention information was not located.

    Doña Ana County’s response, included as Appendix V, page 21 of this
    report, states, “This case [D-0905-CR-200700787] is not reflected as
    a Doña Ana County District Court Case, nor can we find an
    appearance on our master spreadsheet reported to SWBPI.” In the
    third quarter of FY 2008, Doña Ana County received reimbursements
    from SWBPI funds totaling $377,304. According to the
    documentation Doña Ana County provided us, case
    D-0905-CR-200700787 was one of 37 cases Doña Ana County
    included as part of the SWBPI reimbursement for that period.

    This recommendation can be closed when we receive documentation
    that OJP remedied the $384 in unsupported questioned costs
    received by Doña Ana County for one case for which the supporting
    pre-trial detention information was not located.

6.	 Resolved. OJP concurred with our recommendation to remedy the
    $95 in unallowable questioned costs received by Doña Ana County
    for one case that was investigated or prosecuted during a concurrent
    period of time with a case involving the same defendant that was
    also submitted for reimbursement. OJP stated in its response that it
    will coordinate with Doña Ana County to remedy the $95 in


                                  30

      questioned costs related to the one case that was investigated or
      prosecuted during a concurrent period of time with a case involving
      the same defendant that was also submitted for reimbursement.

      Doña Ana County’s response, included as Appendix V, page 21 of this
      report, states they were “unable to locate dual court case numbers,
      suggesting concurrent prosecution or charge.” According to the
      SWBPI guidelines for the third and fourth quarter of FY 2008, “One
      defendant charged in multiple cases should be claimed as only one
      case to the extent the defendant's cases are being investigated
      and/or prosecuted during concurrent periods of time.” Case
      D-307-CR-2008-00061 was prosecuted at the same time as another
      case involving the same defendant and both cases were included as
      part of the SWBPI reimbursement for the fourth quarter of FY 2008.

      This recommendation can be closed when we receive documentation
      that OJP remedied the $95 in unallowable questioned costs received
      by Doña Ana County for one case that was investigated or
      prosecuted during a concurrent period of time with a case involving
      the same defendant that was also submitted for reimbursement.

7.	   Resolved. OJP concurred with our recommendation to remedy the
      $33,819 in funds to better use requested, but not yet received by
      Doña Ana County for 10 cases that were submitted for detention
      days in excess of the actual number of pre-trial detention days. OJP
      stated in its response that it will coordinate with Doña Ana County to
      remedy the $33,819 in funds to be put to better use which were
      requested, but not yet received for the 10 cases that were submitted
      for detention days in excess of the actual number of pre-trial
      detention days.

      Subsequent analysis of case D-307-CR-201000352 resulted in
      remedying funds to better use in recommendation 8 related to this
      case. However, as reported in our draft report and the table on page
      16, this case was also one of the 10 cases that were submitted for
      excess detention days. To avoid duplicate funds to better use with
      recommendation 8, the $33,819 in funds to better use reported in
      our draft report for recommendation 7 excluded case
      D-307-CR-201000352. Because this case was remedied in
      recommendation 8 and will no longer duplicate funds to better use in
      recommendation 7, for this final report we included in the funds to




                                    31

             better use for recommendation 7 the costs for excess days ($1,984)
             associated with case D-307-CR-201000352.20

             The recommendation can be closed when we receive documentation
             that OJP remedied the $35,803 ($33,819 + $1,984) in funds to
             better use requested, but not yet received by Doña Ana County for
             10 cases that were submitted for detention days in excess of the
             actual number of pre-trial detention days.

  8.	        Resolved. OJP concurred with our recommendation to remedy the
             $25,160 in funds to better use requested, but not yet received by
             Doña Ana County for four cases that were investigated or prosecuted
             during a concurrent period of time with cases involving the same
             defendant that were also submitted for reimbursement. OJP stated
             in its response that it will coordinate with Doña Ana County to
             remedy the $25,160 in funds to be put to better use which were
             requested, but not yet received for the four cases that were
             investigated or prosecuted during a concurrent period of time with
             cases involving the same defendant that were also submitted for
             reimbursement.

             Doña Ana County’s response, included as Appendix V, page 21 of this
             report, states it was “unable to locate dual court case numbers,
             suggesting concurrent prosecution or charge.” According to the
             SWBPI guidelines for FY 2010, “One defendant charged in multiple
             cases should be claimed as only one case to the extent the
             defendant's cases are being investigated and/or prosecuted during
             concurrent periods of time.” Cases D-307-CR-200901023,
             D-307-CR-200901232, and D-307-CR-200901167 were prosecuted at
             the same time as other cases involving the same defendants and all
             cases were included as part of the SWBPI reimbursement for FY
             2010. However, subsequent analysis of another case determined
             that the same defendant was prosecuted at a different time. We
             updated this final report with this information and revised the funds
             to better use for remedy in association with this recommendation to
             $13,707 ($25,160 - $11,453).

             The recommendation can be closed when we receive documentation
             that OJP remedied the $13,707 in funds to better use requested, but
             not yet received by Doña Ana County for the remaining three cases


        20
          Case D-307-CR-200901232, which included $90 in costs for excess detention days,
was excluded from funds to better use for recommendation 7 to avoid duplicate funds to
better use for recommendation 8, which also includes the case.


                                           32

      that were investigated or prosecuted during a concurrent period of
      time with cases involving the same defendant that were also
      submitted for reimbursement.

9.	   Resolved. OJP concurred with our recommendation to remedy the
      $24,853 in funds to better use requested, but not yet received by
      Doña Ana County for all cases, which claimed reimbursements using
      per diem rates that exceeded the publicized per diem rates. OJP
      stated in its response that it will coordinate with Doña Ana County to
      remedy the $24,853 in funds to be put to better use which were
      requested, but not yet received for all of the cases, which claimed
      reimbursements using per diem rates that exceeded the publicized
      per diem rates.

      Subsequent analysis of case D-307-CR-201000352 resulted in
      remedying funds to better use in recommendation 8 related to this
      case. However, as reported in our draft report and the table on page
      16, all of the cases were submitted using an excess per diem rate.
      To avoid duplicate funds to better use with recommendation 8, the
      $24,853 in funds to better use reported in our draft report for
      recommendation 9 excluded case D-307-CR-201000352. Because
      this case was remedied in recommendation 8 and will no longer
      duplicate funds to better use in recommendation 9, for this final
      report we included in the funds to better use for recommendation 9
      the costs for excess per diem ($152) associated with case
      D-307-CR-201000352. The excess per diem excludes duplicate
      funds to better use related to this case that were included as part of
      recommendation 7.

      The recommendation can be closed when we receive documentation
      that OJP remedied the $25,005 ($24,853 + $152) in funds to better
      use requested, but not yet received by Doña Ana County for all
      cases, which claimed reimbursements using per diem rates that
      exceeded the publicized per diem rates.

10.	 Resolved. OJP concurred with our recommendation to remedy the
     $5,445 in funds to better use requested, but not yet received by
     Doña Ana County for 52 cases that were submitted under pre-trial
     detention that did not meet the requirements for pre-trial detention.
     OJP stated in its response that it will coordinate with Doña Ana
     County to remedy the $5,445 in funds to be put to better use which
     were requested, but not yet received for the 52 cases that were




                                    33

            submitted under pre-trial detention that did not meet the
            requirements for pre-trial detention. 21

            Doña Ana County’s response, included as Appendix V, page 20 of this
            report, states that the requirement that an inmate be held in custody
            for at least 24 hours did not appear in the guidelines prior to
            FY 2012. Doña Ana County states that it complied with the FY 2008
            through FY 2012 guidelines. However, we reviewed the guidelines
            for FY 2009 and FY 2010, the periods related to the funds to better
            use outlined in this finding, and identified the following language in
            both guidelines: “An eligible jurisdiction must have held the case
            defendant in a secure facility for 24 hours or more.” The 52 cases
            did not meet the requirements for pre-trial detention, based on
            criteria applicable for the submissions identified.

            The recommendation can be closed when we receive documentation
            that OJP remedied the $5,445 in funds to better use requested, but
            not yet received by Doña Ana County for 52 cases that were
            submitted under pre-trial detention that did not meet the
            requirements for pre-trial detention.

  11.	 Resolved. OJP concurred with our recommendation to remedy the
       $4,677 in funds to better use requested, but not yet received by
       Doña Ana County for one case for which the supporting pre-trial
       detention information was not located. OJP stated in its response
       that it will coordinate with Doña Ana County to remedy the $4,677 in
       funds to be put to better use, which were requested, but not yet
       received for the one case for which the supporting pre-trial detention
       information was not located.

            Doña Ana County’s response, included as Appendix V, page 22 of this
            report, states that “this case number is a juvenile number at the time
            of detention . . . Your audit may not have researched juvenile
            numbers.” Although we requested documentation for the cases
            submitted for reimbursement, including this case, the record was not
            made available to us during our audit. We have not received
            documentation supporting the pre-trial detention costs related to this
            case.

            The recommendation can be closed when we receive documentation


       21
           Case D-307-CR-200901167, which included $90 in costs for not meeting the
pre-trial detention requirement, was excluded from funds to better use for recommendation
10 to avoid duplicate funds to better use for recommendation 8, which also includes the case.


                                             34

     that OJP remedied the $4,677 in funds to better use requested, but
     not yet received by Doña Ana County for one case for which the
     supporting pre-trial detention information was not located.

12.	 Resolved. OJP concurred with our recommendation to remedy the
     $88 in funds to better use requested, but not yet received by Doña
     Ana County for one case for which the detention booking date was
     after the case was disposed. OJP stated in its response that it will
     coordinate with Doña Ana County to remedy the $88 in funds to be
     put to better use which were requested, but not yet received for the
     one case for which the detention booking date was after the case was
     disposed.

     Doña Ana County’s response, included as Appendix V, page 22 of this
     report, states that, “SWBPI has identified this record as receiving
     court disposition on 02/03/2009. [The] inmate was first booked . . .
     on 02/06/2009 and court disposition [was] recorded on 02/16/2009.”
     In New Mexico, only pre-trial detention services are reported in a
     county’s online application. Prosecution services are provided
     through state agencies and are reflected in a state-level application.
     This means the state, not the county, is responsible for reporting the
     case disposition date to SWBPI. According to the state’s SWBPI
     records, the disposition date for this case was February 3, 2009. The
     county did not make available to us documentation indicating the
     disposition date was not February 3, 2009. Further, the county did
     not include any documentation with its response to the draft report.

     The recommendation can be closed when we receive documentation
     that OJP remedied the $88 in funds to better use requested, but not
     yet received by Doña Ana County for one case for which the
     detention booking date was after the case was disposed.




                                   35

